Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  QUESTIONABLE BILLING FOR
   BRAND-NAME INHALATION
   DRUGS IN SOUTH FLORIDA




                    Daniel R. Levinson
                     Inspector General

                      December 2010
                     OEI-03-09-00530
   E X E C U T I V E                      S U M M A R Y


                  OBJECTIVES
                  1. To identify changes in billing among South Florida durable medical
                  equipment (DME) suppliers for budesonide and arformoterol after
                  payment controls were put in place to detect and deny excessive
                  budesonide claims.

                  2. To determine whether the amount of arformoterol billed by
                  South Florida DME suppliers and paid under Medicare Part B exceeded
                  the amount of the drug distributed for sale in the area between
                  January 2008 and June 2009.


                  BACKGROUND
                  Medicare Part B covers inhalation drugs when they are used in
                  conjunction with DME. Beneficiaries typically obtain DME items,
                  including inhalation drugs, through suppliers, which then submit
                  claims to Medicare on behalf of the beneficiaries. The Centers for
                  Medicare & Medicaid Services (CMS) contracts with four geographically
                  defined DME Medicare Administrative Contractors to process and pay
                  DME claims. CMS also contracts with Program Safeguard Contractors
                  to administer benefit integrity functions and conduct medical reviews.

                  CMS may establish national coverage determinations for DME items.
                  National coverage determinations specify whether certain medical
                  items, services, treatment procedures, or technologies are eligible for
                  Medicare payment. When a national coverage determination does not
                  exist or when there is need for further definition, a local coverage
                  determination (LCD) may be established by a CMS contractor. An LCD
                  for nebulizers and related inhalation drugs (L5007), originally effective
                  on April 1, 1997, establishes coverage limitations, such as the maximum
                  milligrams per month of a drug that may reasonably be billed for a
                  beneficiary. Through this LCD, a utilization edit to detect and deny
                  claims that exceed utilization guidelines was implemented for the
                  inhalation drug budesonide in September 2008.

                  In 2008, Medicare was billed $426 million for the inhalation drug
                  budesonide (brand name Pulmicort Respules) and $75 million for the
                  inhalation drug arformoterol (brand name Brovana). During that year,
                  Medicare spent $297 million for budesonide and $47 million for
                  arformoterol. Both brand-name-only drugs have relatively high
                  Medicare payment amounts when compared to the payment amounts
                  for inhalation drugs with generic versions. Billing and spending on

OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   i
E X E C U T I V E              S U        M M A R Y


                   budesonide and arformoterol for beneficiaries in South Florida
                   (Miami-Dade, Broward, and Palm Beach Counties) were much greater
                   when compared to billing and spending for beneficiaries in the rest of
                   the country.

                   We used the Medicare National Claims History File to identify all
                   budesonide and arformoterol claims in 2008 and the first half of 2009.
                   We also obtained sales data from arformoterol’s manufacturer,
                   Sepracor, for the same period. Sepracor provided sales data for any
                   direct sales and sales by the three largest wholesalers (approximately
                   70 percent to 75 percent of sales).
                   For budesonide and arformoterol, we analyzed the claim files to identify
                   billing differences by South Florida suppliers before and after the
                   utilization edit was implemented on September 19, 2008. We calculated
                   the number of South Florida suppliers that (1) billed Medicare for units
                   provided before the edit but did not bill after the edit, (2) did not bill for
                   units before the edit but began billing after the edit, and (3) billed for
                   units provided both before and after the edit. Using the arformoterol
                   sales data provided by Sepracor, we compared the total number of
                   arformoterol units sold to South Florida suppliers by the manufacturer
                   and the three largest wholesalers to the number of units paid based on
                   the Medicare claims files. We also compared the dollar amount
                   submitted by South Florida suppliers to the amount distributed for sale
                   in the region.


                   FINDINGS
                   After a utilization edit was implemented for budesonide, Medicare
                   payments for the drug to South Florida suppliers were reduced by
                   almost half. In the 6 months after the edit was implemented, there was a
                   46-percent decrease in Medicare payments for budesonide to South Florida
                   suppliers ($13 million less than in the 6 months before the edit). In fact,
                   39 high-dollar South Florida suppliers either completely stopped or
                   reduced billing for budesonide after the edit was put in place.
                   Medicare payments for arformoterol to South Florida suppliers more
                   than doubled after a utilization edit for budesonide was implemented.
                   In the 6 months after the budesonide edit was put in place, arformoterol
                   billings by South Florida suppliers increased by 53 percent and Medicare
                   payments for the drug to South Florida suppliers increased by 138 percent
                   compared to billings and payments from 6 months prior. After the
                   September 2008 budesonide edit, decreases in Medicare expenditures for

 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   ii
E X E C U T I V E              S U        M M A R Y


                   budesonide were offset by increases in expenditures for arformoterol. In
                   fact, 169 South Florida suppliers either started billing or had billing
                   increases for arformoterol within the 6 months after the edit was
                   implemented.
                   We estimate that in 2008 and the first half of 2009, Medicare paid
                   South Florida suppliers for up to 10 times more units of
                   arformoterol than were distributed for sale in the area. In 2008 and
                   the first half of 2009, Medicare paid for 7 million units of arformoterol,
                   but the manufacturer and the 3 largest wholesalers sold only
                   750,000 units to suppliers in the area. As a result, Medicare paid South
                   Florida suppliers for nearly 10 times more units of arformoterol than
                   the drug’s manufacturer and the 3 largest wholesalers sold to South
                   Florida suppliers. Even when factoring in the 25 percent to 30 percent
                   of missing sales data (i.e., sales from sources other than the
                   manufacturer and the three largest wholesalers), it is highly unlikely
                   that South Florida suppliers provided beneficiaries with this volume of
                   arformoterol.
                   Based on data for the manufacturer and the 3 largest wholesalers,
                   Florida suppliers billed Medicare for up to 17 times more than the
                   amount that could have legitimately been billed. Had all South Florida
                   sales reported by Sepracor and the three largest wholesalers gone to
                   beneficiaries, the program would have spent $3.7 million on
                   arformoterol in the area in 2008 and the first half of 2009. Instead,
                   South Florida suppliers billed Medicare for $62 million, of which the
                   program paid $34 million.

                   The majority (65 percent) of the Miami-Dade County suppliers billing
                   for arformoterol in 2008 and the first half of 2009 never purchased
                   arformoterol from the drug’s manufacturer or the three largest
                   wholesalers in this period. In fact, three-fourths of the suppliers with
                   the most arformoterol billings in Miami-Dade County did not purchase
                   a unit of the drug from arformoterol’s manufacturer and the three
                   largest wholesalers.


                   RECOMMENDATIONS
                   South Florida is known for its susceptibility to Medicare fraud,
                   particularly by DME suppliers. A previous Office of Inspector General
                   (OIG) report identified potential fraud related to billings for budesonide
                   by South Florida suppliers. In September 2008, a CMS contractor
                   implemented an automated edit to detect and deny claims that exceed

 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   iii
E X E C U T I V E              S U        M M A R Y


                   the maximum milligrams that a physician can safely prescribe to a
                   beneficiary for budesonide. Our findings indicate that this edit did in
                   fact decrease budesonide billings by and Medicare payments to
                   South Florida DME suppliers. However, South Florida suppliers
                   instead began billing for another brand-name inhalation drug,
                   arformoterol. The substantial difference between the sales data
                   provided by arformoterol’s manufacturer and the claims data for
                   South Florida suppliers suggests that these suppliers were billing for
                   drugs that may not have been actually purchased. Therefore, we
                   recommend that CMS:
                   Require DME contractors to implement utilization edits in high-fraud
                   areas as soon as Medicare begins paying for a brand-name drug.
                   Monitor utilization changes among brand-name inhalation drugs.
                   Strengthen initial claim review processes to focus on prevention of
                   improper payments.
                   Perform site visits and request documentation from South Florida
                   suppliers to support budesonide and arformoterol billings.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all four of our recommendations (one of the
                   concurrences included a caveat) and described steps that the agency has
                   taken to resolve problematic billings for brand-name inhalation drugs
                   by DME suppliers in South Florida and in certain other areas of the
                   country. CMS generally concurred with our recommendation about
                   utilization edits for brand-name inhalation drugs, but included the
                   caveat that certain procedures, such as developing and issuing an LCD,
                   would need to be followed before implementing these edits. OIG
                   acknowledges the importance of CMS’s requirements; however,
                   budesonide and arformoterol had utilization guidelines in an LCD years
                   before prepayment edits were implemented. CMS agreed with our
                   recommendations to monitor utilization changes and strengthen initial
                   claim review processes. CMS stated that to address the latter it would
                   recommend that its contractors include late-billing suppliers as an
                   additional risk indicator. Finally, CMS concurred with our
                   recommendation to review problematic suppliers and provided details
                   about its planned actions.



 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    After a utilization edit was implemented for budesonide,
                    Medicare payments for the drug to South Florida suppliers
                    were reduced by almost half . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    Medicare payments for arformoterol to South Florida suppliers
                    more than doubled after a utilization edit for budesonide was
                    implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                    We estimate that in 2008 and the first half of 2009, Medicare
                    paid South Florida suppliers for up to 10 times more units of
                    arformoterol than were distributed for sale in the area . . . . . . . . 19



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    Agency Comments and Office of Inspector General Response . . . 25


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
                    A: Medicare Process for Enrolling Durable Medical Equipment
                       Suppliers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    B: Related Office of Inspector General Work . . . . . . . . . . . . . . . . 28

                    C: Criteria Used To Identify and Refer Potentially Fraudulent
                       South Florida Durable Medical Equipment Suppliers . . . . . . 31

                    D: Monthly Claims Submitted by South Florida Suppliers for
                       Arformoterol Services Provided in 2008. . . . . . . . . . . . . . . . . . 32

                    E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
   I N T R O D U C T I O N

                  OBJECTIVES
                  1. To identify changes in billing among South Florida durable medical
                  equipment (DME) suppliers for budesonide and arformoterol after
                  payment controls were put in place to detect and deny excessive
                  budesonide claims.

                  2. To determine whether the amount of arformoterol billed by
                  South Florida DME suppliers and paid under Medicare Part B exceeded
                  the amount of the drug distributed for sale in the area between
                  January 2008 and June 2009.


                  BACKGROUND
                  Medicare payments for DME have consistently been vulnerable to fraud
                  and abuse. In particular, the South Florida region has been identified
                  by the Office of Inspector General (OIG), the Centers for Medicare &
                  Medicaid Services (CMS), and other agencies as a high-risk area for
                  fraudulent billings to Medicare by DME suppliers.

                  A 2009 OIG report found that brand-name inhalation drugs appear to
                  be especially prone to aberrant billings by South Florida DME
                  suppliers, which could lead to improper Medicare payments. 1 For
                  example, in the second half of 2007, 75 percent of South Florida
                  beneficiaries who received the brand-name drug budesonide had paid
                  claims that exceeded the drugs’ utilization guideline for a 90-day period.
                  A CMS contractor implemented an edit in September 2008 to detect and
                  deny budesonide claims that exceed the utilization guideline.

                  Another previous OIG report 2 has shown that pricing and payment
                  concerns may affect which inhalation drug a supplier will provide. This
                  current report will determine how the edit affected billing and payment
                  for budesonide and whether utilization shifted to the newer brand-name
                  inhalation drug arformoterol. Although both drugs are prescribed to
                  treat conditions affecting the lungs, large shifts from budesonide to
                  arformoterol should not be expected because the drugs are not
                  interchangeable in terms of approved use or classification.




                    1 OIG, Aberrant Claim Patterns for Inhalation Drugs in South Florida
                  (OEI-03-08-00290), April 2009.
                    2 OIG, Beneficiary Utilization of Albuterol and Levalbuterol Under Medicare Part B
                  (OEI-03-07-00440), August 2009.



OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   1
I N T R O D        U C T      I O N


                    Medicare Part B Coverage of Inhalation Drugs
                    Although Medicare Part D covers most outpatient prescription drugs,
                    CMS continues to cover a limited number of prescription drugs and
                    biologicals (hereinafter referred to as drugs) under its Part B benefit.
                    These drugs generally fall into three categories: injectable drugs
                    administered by a physician, drugs explicitly covered by statute, and
                    drugs administered through DME. 3 Inhalation drugs, a class of DME
                    drugs requiring a nebulizer, are prescribed to treat and prevent
                    symptoms brought on by lung diseases, such as asthma and chronic
                    obstructive pulmonary disorder.

                    Beneficiaries typically obtain inhalation drugs through DME suppliers,
                    which purchase the drugs either directly from the manufacturer or from
                    a distributor/wholesaler (hereinafter referred to as wholesalers). 4 DME
                    suppliers that purchase large quantities of a drug likely receive volume
                    discounts from the manufacturer and/or wholesaler. 5 Three wholesalers
                    account for around 90 percent of the prescription drug market. 6
                    DME suppliers typically submit claims for DME items to Medicare on
                    behalf of the beneficiaries. In general, DME claims should be submitted
                    within 12 months of the service dates. 7 For an inhalation drug to be
                    eligible for Medicare reimbursement, the DME supplier must have a
                    signed prescription from the treating physician and the submitted claim
                    form must list the physician’s identification number.

                    Once Medicare receives the claim, it has up to 30 calendar days to pay
                    or deny it. 8 Generally, Medicare will pay 80 percent of the authorized
                    reimbursement amount to the DME supplier providing the inhalation
                    drug; the beneficiary is responsible for the remaining 20 percent in the
                    form of coinsurance. CMS has implemented several initiatives that




                      3 68 Fed. Reg. 50428, 50429 (Aug. 20, 2003).
                      4 See Appendix A for a description of the DME supplier enrollment process.
                      5 OIG, Excessive Medicare Reimbursement for Albuterol (OEI-03-01-00410)
                    March 2002; Excessive Medicare Reimbursement for Ipratropium Bromide
                    (OEI-03-01-00411), March 2002.
                      6 Market Watch, Growing Share of ‘Big Three’ Gets Federal Attention. Accessed at
                    http://www.marketwatch.com on July 23, 2009. The three wholesalers are Cardinal Health,
                    Inc., McKesson, and AmerisourceBergen.
                      7 Social Security Act, § 1848(g)(4), 42 U.S.C. § 1395w-4.
                      8 Claims submitted by certain problem suppliers may be placed on a prepayment review
                    and are subject to a medical review before the claims are paid. Payment in these cases may
                    exceed the 30 calendar days allotted to pay or deny the claims.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   2
I N T R O D        U C T      I O N


                    enable contractors to conduct prepayment or postpayment reviews of
                    certain submitted claims. 9
                    CMS contracts with four geographically defined DME Medicare
                    Administrative Contractors (MAC) to process and pay for DME
                    claims. 10 CMS also contracts with Program Safeguard Contractors
                    (PSC) 11 and Zone Program Integrity Contractors (ZPIC) 12, 13 to perform
                    benefit integrity 14 and medical review functions for each of the four
                    DME MAC jurisdictions.
                    DME Coverage Determinations
                    CMS may establish national coverage determinations for DME items
                    (including inhalation drugs). 15 National coverage determinations
                    specify whether certain medical items, services, procedures, or
                    technologies are eligible for Medicare payment. DME MACs and PSCs
                    are required to follow national coverage determinations when they exist.

                    However, when a national coverage determination does not exist or
                    when there is need for further definition, DME MACs may establish or
                    revise a local coverage determination (LCD). 16 The LCD defines
                    coverage criteria, coding rules, and documentation requirements that
                    will be applied to DME claims processed by DME MACs. Because many
                    DME suppliers operate nationally, CMS requires that LCDs involving
                    DME items (including inhalation drugs) be identical among all four



                      9 For example, the National Correct Coding Initiatives Edits, Medically Unlikely Edits,

                    and the Medical Review Program can be used to review claims prior to paying; the
                    Comprehensive Error Rate Testing Program, Recovery Audit Contractors, and the Medical
                    Review Program can be used for reviewing claims after payment.
                      10 The four DME MAC contractors are National Heritage Insurance Company for
                    Jurisdiction A; AdminaStar Federal, Inc., for Jurisdiction B; CIGNA Government Services,
                    LLC, for Jurisdiction C; and Noridian Administrative Services for Jurisdiction D.
                      11 Social Security Act, § 1893.
                      12 CMS, CMS Enhances Program    Integrity Efforts to Fight Fraud, Waste and Abuse in
                    Medicare. Accessed at http://www.cms.hhs.gov on July 23, 2009.
                      13 CMS is transitioning PSC work to ZPICs. There are seven ZPIC jurisdictions. Two
                    ZPICs became operational in February 2009, and CMS expects that by the end of 2010, all
                    PSC work will be transitioned to ZPICs. Until the transition is complete, PSCs and ZPICs
                    will both be responsible for the benefit integrity of DME claims (as well as all Parts A and B
                    claims).
                      14 Benefit integrity refers to functions that prevent, detect, and deter Medicare fraud.
                      15 Social Security Act, § 1862(a)(1).
                      16 Since March 1, 2008, DME MACs have had full responsibility for developing and
                    revising LCDs. However, before that date, PSCs developed the LCDs and submitted them
                    to DME MACs (or its predecessors, the DME regional carriers) for approval.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   3
I N T R O D        U C T      I O N


                    DME MACs. Therefore, coverage determinations for DME items are the
                    same in all four DME MAC jurisdictions.

                    An LCD (L5007) was established for nebulizers and related inhalation
                    drugs effective April 1997. 17 One function of this LCD was to set
                    guidelines for the maximum milligrams per month that may reasonably
                    be billed for certain inhalation drugs. 18 This LCD states that claims
                    exceeding these guidelines will be denied as not medically necessary.
                    As required by CMS, the LCD is effective nationally, meaning that it
                    applies to inhalation drug claims in all four DME MAC jurisdictions. To
                    enforce the LCD for certain drugs, CMS has implemented computerized
                    edits to automatically detect and deny claims that exceed the utilization
                    guidelines.
                    Brand-Name Inhalation Drugs: Budesonide and Arformoterol
                    Budesonide. Budesonide (brand name Pulmicort Respules) is an
                    inhaled corticosteroid used in conjunction with a nebulizer. The Food
                    and Drug Administration (FDA) approved budesonide on
                    August 8, 2000, for the “maintenance treatment of asthma and as
                    prophylactic therapy in children 12 months to 8 years of age.” 19
                    Physicians may legally prescribe this drug to older patients to treat
                    respiratory disorders; however, such prescriptions would be considered
                    an off-label use of the drug. 20
                    Over time, the Medicare payment amount for a unit (i.e., one vial of up
                    to 0.5 milligram) of budesonide has gradually increased. 21 In the first
                    quarter of 2008, Medicare paid $5.09 per unit, but paid $5.39 in the
                    fourth quarter of 2008 (and paid $6.42 in the second quarter of 2010).

                    In 2008, DME suppliers billed Medicare $426 million for budesonide
                    inhalation solution, of which the program paid $297 million. The
                    amount billed and paid for beneficiaries in South Florida was


                      17 CMS, LCD for Nebulizers. Accessed at http://www.cms.gov on January 14, 2010.
                      18 As of its most recent update on January 1, 2010, the LCD has maximum milligram
                    billing guidelines for 14 inhalation drugs and solutions.
                      19 FDA, label for Pulmicort Respules (budesonide inhalation solution). Accessed at
                    http://www.accessdata.fda.gov on October 27, 2009.
                      20 Off-label use refers to the practice of prescribing medications approved by FDA for a
                    purpose outside the scope of the drugs’ approved label.
                       21 The Medicare payment amount for most Part B drugs, including inhalation drugs, is
                    equal to 106 percent of the volume-weighted average sales price (ASP). Section 1847A(c) of
                    the Social Security Act defines an ASP as a manufacturer’s sales of a drug to all purchasers
                    in the United States in a calendar quarter divided by the total number of units of the drug
                    sold by the manufacturer in that same quarter, net of any price concessions.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   4
I N T R O D        U C T       I O N


                    substantially higher than the amount billed and paid for beneficiaries
                    in counties not located in South Florida (see Table 1).
                    Table 1: Medicare Amounts Billed and Paid for
                    Budesonide in 2008

                     Beneficiary                                                    Total                      Total
                     Location                                                      Billed                      Paid


                     Three South Florida Counties

                       Miami-Dade                                             $93.9 mil                    $48.9 mil
                       Broward                                                  $5.1 mil                    $2.9 mil
                       Palm Beach                                               $2.0 mil                    $1.4 mil

                     Top Three Billing Counties Not in South Florida

                       Cook, IL                                                 $2.7 mil                    $1.8 mil
                       Sedgwick, KS                                             $1.9 mil                    $1.4 mil
                       Dallas, TX                                               $1.8 mil                    $1.4 mil

                    Source: OIG analysis of 2008 DME claims file, August 2009.

                    South Florida suppliers billed for 97 percent of the budesonide claims
                    associated with area beneficiaries. These suppliers accounted for a
                    quarter of the total amount billed to Medicare nationwide for
                    budesonide and 18 percent of total payments for the drug. Suppliers in
                    this region also billed over $900 more per beneficiary for budesonide
                    annually, on average, when compared to the amounts billed by
                    suppliers in the rest of the country.

                    Utilization guidelines that define the maximum monthly dose of
                    budesonide were added to the LCD for nebulizers and related
                    inhalation drugs on July 1, 2007. According to staff from a CMS
                    contractor, on September 19, 2008, an automated edit was implemented
                    by the DME MAC and PSC covering Jurisdiction C (the region
                    including South Florida) to detect and deny budesonide claims that
                    exceed the guidelines.
                    Arformoterol. Arformoterol (brand name Brovana) functions as a
                    long-acting bronchodilator and is approved to treat chronic obstructive
                    pulmonary disorder (but not asthma) in adults. FDA issued a black box
                    warning 22 for arformoterol and many other long-acting bronchodilators


                      22 A black box warning is designed to warn of serious adverse reactions that may lead to
                    death or serious injury. See 21 CFR § 201.57(a)(4).



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   5
I N T R O D        U C T        I O N


                    because data indicated an increased incidence in asthma-related deaths
                    in patients receiving salmeterol, the active ingredient in this class of
                    drug. 23 FDA approved arformoterol in October 2006, and its
                    manufacturer, Sepracor, began marketing the drug in April 2007.

                    On January 1, 2008, CMS established a payment amount and billing
                    code for arformoterol. 24 During that quarter, the Medicare payment
                    amount for one vial was $4.72. This amount had increased to $5.23 by
                    the second quarter of 2010.

                    In 2008, DME suppliers billed Medicare $75 million for arformoterol, of
                    which the program paid $47 million. Even though only 2 percent of
                    Medicare beneficiaries lived in South Florida, these beneficiaries
                    accounted for 43 percent of the amount billed nationwide and 31 percent
                    of the amount paid by Medicare for arformoterol. 25 The majority
                    (98 percent) of the claims for South Florida beneficiaries were billed by
                    suppliers located in South Florida (see Table 2).


                    Table 2: Medicare Amounts Billed and Paid for
                    Arformoterol in 2008

                     Beneficiary                                                     Total                      Total
                     Location                                                       Billed                      Paid

                     Three South Florida Counties


                        Miami-Dade                                             $29.1 mil                    $13.0 mil
                        Broward                                                  $2.5 mil                    $1.0 mil
                        Palm Beach                                             $554,000                     $395,000

                     Top Three Billing Counties Not in South Florida

                        Harris, TX                                             $571,000                     $183,000
                        Cook, IL                                               $371,000                     $267,000
                        Los Angeles, CA                                        $351,000                     $238,000

                    Source: OIG analysis of 2008 DME claims file, August 2009.




                      23 Label for Brovana (arformoterol tartrate) Solution. Accessed at

                    http://www.accessdata.fda.gov on July 17, 2009.
                      24 Prior to 2008, suppliers would bill using a “Not Otherwise Classified Nebulizer Drug
                    Code” and indicate on the claim form that the drug was arformoterol.
                      25 CMS,  Medicare Enrollment Reports. Accessed at
                    http://www4.cms.gov/MedicareEnrpts/ on June 3, 2010. The most recent enrollment report
                    available was last updated on July 1, 2007.



 OEI-03-09-00530    QUESTIONABLE BILLING    FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   6
I N T R O D        U C T      I O N


                    Utilization guidelines for arformoterol were added to the LCD on
                    July 1, 2007. As of March 2010, an automated edit for arformoterol had
                    not been put in place.
                    Medicare Fraud in South Florida
                    OIG’s numerous reports, criminal indictments, and convictions
                    involving providers in South Florida have identified vulnerabilities that
                    have put the Medicare program at risk for fraud and/or abuse. OIG
                    studies have involved unannounced site visits to verify that DME
                    suppliers meet certain supplier standards and analysis of claim
                    patterns related to infusion therapy providers and DME suppliers.

                    In March 2007, a Medicare Strike Force of Federal, State, and local
                    investigators began operating in high-fraud areas (including
                    South Florida) to detect, prosecute, and prevent Medicare fraud by DME
                    suppliers. As of May 31, 2010, the Strike Force’s efforts have resulted
                    in charges against over 550 defendants; over 300 convictions; the
                    sentencing of over 250 defendants; and over $260 million in
                    court-ordered restitutions, fines, and penalties. 26
                    The Medicare Strike Force found that one method used to defraud
                    Medicare involved South Florida DME suppliers’ paying physicians to
                    write fraudulent inhalation drug prescriptions and paying Medicare
                    beneficiaries to accept the unnecessary medications or to help create the
                    appearance that the drugs were delivered. Beneficiaries could receive
                    up to $150 per month or $300 per falsified visit for use of their Medicare
                    identification numbers. In many cases, beneficiaries have testified that
                    they threw away the inhalation drugs upon receipt or that the DME
                    supplier instructed them to sign fake delivery receipts even though they
                    had not received any equipment or medication. 27 Physicians have also
                    testified that they had falsely diagnosed beneficiaries and prescribed
                    unnecessary inhalation drugs for these fictitious diagnoses. 28 In


                      26Hearing   on Reducing Fraud, Waste and Abuse in Medicare, Hearing Before the
                    U.S. House Committee on Ways and Means, Subcommittees on Health and Oversight,
                    111th Cong. (2010) (Testimony of Lewis Morris, Chief Counsel to the Inspector General,
                    Department of Health & Human Services).
                      27 Department of Justice (DOJ) Press Release, June 28, 2007, Medicare Fraud Strike
                    Force Convicts Owner of Miami Durable Medical Equipment Company of Defrauding
                    Medicare. Accessed at http://www.usdoj.gov on December 18, 2007. DOJ Press Release,
                    March 7, 2008, Miami Jury Convicts Physician and Three Business Owners of Medicare
                    Fraud. Accessed at http://miami.fbi.gov on April 15, 2008.
                     28 DOJ Press Release, July 11, 2008, Miami Doctor Sentenced to 41 Months in Prison for
                    Medicare Fraud. Accessed at http://www.miami.fbi.gov on January 22, 2010.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   7
I N T R O D        U C T      I O N


                    multiple cases, medical personnel allegedly conspired with a South
                    Florida DME supplier to create the appearance that the beneficiary
                    qualified for and received services and/or drugs that were not medically
                    necessary and/or were not provided.

                    However, beneficiaries and physicians are not always aware that
                    DME suppliers are using their Medicare identification numbers for
                    fraudulent activities. For example, a Miami DME owner pleaded guilty
                    in August 2009 to billing Medicare $123 million in fraudulent DME
                    claims that had not been prescribed or ordered by a physician or
                    delivered to a beneficiary. In cases such as this, a DME supplier
                    fraudulently obtains beneficiary identification information and uses a
                    physician’s identification number without the physician’s consent or
                    knowledge. 29, 30
                    In May 2009, efforts to fight and reduce Medicare fraud were renewed
                    through the Health Care Fraud Prevention and Enforcement Action
                    Team (HEAT) initiative. See Appendix B for a full description of related
                    OIG reports and governmental efforts to reduce Medicare fraud in
                    South Florida.


                    METHODOLOGY
                    Data Sources and Collection
                    Medicare claims data. We used the Medicare National Claims History
                    (NCH) file to identify all Part B claims for budesonide and
                    arformoterol in 2008 and the first half of 2009. 31 To identify where
                    the supplier submitting each claim was located, we cross-referenced
                    the supplier identification number listed in the claims file to the
                    supplier identification number listed in the 2008 or the 2009 National
                    Supplier Clearinghouse (NSC) file. We then selected all claims
                    submitted by suppliers located in South Florida (i.e., Miami-Dade,
                    Broward, or Palm Beach Counties). In 2008 and the first half of 2009,
                    609 South Florida suppliers submitted 204,603 claims for budesonide


                      29 DOJ Press Release, April 1, 2008,Miami-Dade DME and Clinic Owners Indicted for
                    Using Stolen Patient Information in Multi-million Dollar Medicare Fraud Scheme.
                    Accessed at http://www.usdoj.gov on October 1, 2008.
                      30 DOJ Press Release, August 14, 2009,
                                                           Miami Man Pleads Guilty to $123 Million
                    Medicare Fraud Scheme. Accessed at http://miami.fbi.gov on August 31, 2009.
                      31 For arformoterol, we obtained an updated 2009 claims data file after our initial data
                    request. We used this file to summarize supplier billing and payment information for all
                    arformoterol claims in the entire year.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   8
I N T R O D        U C T         I O N


                    and 305 South Florida suppliers submitted 79,878 claims for
                    arformoterol. See Table 3 for the total number of suppliers billing for
                    budesonide and arformoterol in each South Florida county for the
                    entire period.
                    Table 3: Number of South Florida DME Suppliers Billing
                    for Budesonide and Arformoterol in 2008 and the First
                    Half of 2009

                                              Number of Suppliers                      Number of Suppliers
                                                 in 2008 and First                        in 2008 and First
                     County
                                               Half of 2009 Billing                     Half of 2009 Billing
                                                  for Budesonide                           for Arformoterol

                     Broward                                                  77                                  27

                     Miami-Dade                                             453                                  242

                     Palm Beach                                               79                                  36

                         Total                                              609                                  305

                    Source: OIG analysis of DME claims files, 2010.

                    Manufacturer sales data. We contacted arformoterol’s manufacturer,
                    Sepracor, and asked that it provide us with the total number of vials
                    of arformoterol sold in 2008 and 2009 to DME suppliers located in
                    South Florida (whether directly or through a wholesaler). We also
                    asked for information to identify the suppliers to which arformoterol
                    was sold (e.g., suppliers’ names, any other known business names,
                    and addresses). 32
                    In November 2009, Sepracor provided the requested sales data for all of
                    2008 and the first three quarters of 2009. Sepracor provided sales data
                    for any direct sales activity (i.e., the manufacturer sells directly to the
                    end user) and sales data for the three largest wholesalers. 33 Sepracor
                    estimated that these three wholesalers accounted for approximately
                    70 percent to 75 percent of all arformoterol sales to wholesalers. These


                      32 We had also contacted budesonide’s manufacturer, AstraZeneca, and requested similar
                    sales data for budesonide. AstraZeneca provided data in May 2010; however, the data
                    provided were not at the level of detail necessary for an analysis of sales to South Florida
                    suppliers.
                       33 Sepracor’s only direct sales were to two Broward County suppliers. The exact number
                    of suppliers with purchases from the three largest wholesalers could not be determined for
                    confidentiality reasons. At a minimum, data pertaining to the 3 largest wholesalers
                    included 123 Miami-Dade County suppliers, 55 Broward County suppliers, and 29 Palm
                    Beach County suppliers.



 OEI-03-09-00530    QUESTIONABLE BILLING    FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   9
I N T R O D        U C T      I O N


                    data included, in addition to the number of arformoterol units sold, the
                    transaction date, business name, and address for each sale to every
                    South Florida supplier that purchased the drug either directly or
                    through one of the three largest wholesalers.

                    Because of contractual commitments between the three largest
                    wholesalers and certain suppliers, Sepracor was unable to provide
                    identification information for all suppliers. Sepracor commented that
                    the unidentified suppliers were typically large, retail, chain pharmacies.
                    Sepracor provided only the suppliers’ ZIP Codes and counties associated
                    with these transactions.
                    In addition, we accessed CMS’s ASP background files to obtain the total
                    arformoterol units sold nationwide from the first quarter of 2008
                    through the second quarter of 2009. 34 The ASP background files
                    contain manufacturer-reported sales of the drug to all purchasers in the
                    United States (not just to Medicare beneficiaries).

                    Supplier data. We spoke with our Office of Investigations (OI) about
                    certain suppliers that we identified as having questionable billing
                    patterns. OI provided us with information regarding indictments and
                    investigations related to the suppliers in question. In addition, staff
                    from DOJ provided us with details of a recent NSC site visit to a
                    South Florida supplier.
                    Data Analysis
                    Billing shifts in budesonide and arformoterol. To identify billing changes
                    after the budesonide edit was implemented on September 19, 2008, we
                    analyzed claims by both the dates of service and the dates the claims
                    were received for processing.

                    We subset the drug’s claims for services occurring up to 180 days before
                    the edit’s implementation (March 23 to September 18, 2008) and up to
                    180 days after the edit’s implementation (September 19, 2008, to
                    March 17, 2009). We calculated the percentage difference in billing and
                    payments for budesonide before and after the edit. We performed this
                    same calculation for arformoterol.

                    For both drugs, we used the subset files described in the above
                    paragraph to determine the number of Florida suppliers that (1) billed
                    Medicare for units provided before the edit but did not bill after the edit,


                      34 Each quarter, certain manufacturers must report to CMS the ASPs of their Part-B
                    covered drugs as well as the number of units sold in the quarter.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   10
I N T R O D        U C T      I O N


                    (2) did not bill for units before the edit but began billing after the edit,
                    and (3) billed for units provided both before and after the edit. For
                    suppliers in each group, we determined the extent of changes in billing
                    and payment amounts for budesonide and arformoterol.

                    For arformoterol, we also used the date that the supplier actually
                    submitted the claim for processing to analyze billing shifts. To do so, we
                    determined the amount billed in each month in 2008 and the percentage
                    of total 2008 dollars that were submitted after the edit using the receipt
                    date listed on the claim (i.e., the date the DME MAC receives the claim
                    from the supplier).

                    Arformoterol sales data and Medicare claims data. We first compared the
                    number of units and total dollars paid for by Medicare in South Florida
                    to the number of units sold in the area by the manufacturer and the
                    three largest wholesalers. Using claims data in the NCH file for 2008
                    and the first half of 2009, we determined the number of arformoterol
                    units paid per South Florida supplier by dividing the amount paid on
                    each claim by the Medicare payment amount for the quarter when the
                    service was provided (the Medicare payment amount represents one
                    unit of the drug). 35 We summed the total number of arformoterol units
                    paid by Medicare to suppliers in South Florida. Using the sales data
                    Sepracor provided, we then calculated the total number of arformoterol
                    units sold by Sepracor and the three largest wholesalers to
                    South Florida suppliers in 2008 and the first half of 2009 (one vial is
                    equal to one unit). We compared the total number of units sold to
                    South Florida suppliers to the total number of units that were paid by
                    Medicare.

                    We then compared the amount billed (i.e., submitted charges) to
                    Medicare by South Florida suppliers to the amount sold by the
                    manufacturer and the three largest wholesalers. Because Medicare
                    claims data do not have a variable for units “billed,” we could do this
                    comparison only by the total dollar amount billed. To estimate the
                    dollar amount of arformoterol that could have been billed by area
                    suppliers, we multiplied the number of units sold to South Florida
                    suppliers (according to Sepracor’s data) by the Medicare payment
                    amount for each quarter. We summed the quarterly figures and


                      35 These claims data contained a total service variable; although our estimate is similar

                    to the total services in the claims file, our method used to calculate units paid was a more
                    conservative estimate.



 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   11
I N T R O D        U C T      I O N


                    compared this total figure to the total amount actually billed by
                    South Florida suppliers and paid by Medicare during this time.

                    Accounting for arformoterol units not sold by the manufacturer or the three
                    largest wholesalers. We used CMS’s quarterly ASP background files to
                    obtain the total number of arformoterol units Sepracor sold in 2008 and
                    the first half of 2009. This figure represents total sales in the entire
                    country and includes non-Medicare beneficiaries. To account for the
                    25 percent to 30 percent of sales data we were unable to obtain from
                    Sepracor, we multiplied the total number of units sold during each
                    quarter by 30 percent. This provided us with an estimate of the
                    maximum number of total possible units South Florida suppliers could
                    have purchased from an entity other than the manufacturer or the three
                    largest wholesalers. We added this figure to the number of units sold to
                    South Florida suppliers from Sepracor’s data to get the total possible
                    units that could have been sold to South Florida suppliers. We
                    compared the “total possible units” figure to the number of units paid by
                    Medicare.

                    Arformoterol sales data for individual DME suppliers in Miami-Dade County.
                    We focused a portion of our sales analysis on individual suppliers in
                    Miami-Dade County. As shown in Table 3, the 242 Miami-Dade County
                    suppliers represented the majority (79 percent) of South Florida
                    suppliers billing for arformoterol between January 2008 and June 2009.
                    We linked the arformoterol units in the claims data to the units in
                    Sepracor’s sales data using the name and address for each Miami-Dade
                    County supplier. We determined the number of suppliers billing
                    Medicare for arformoterol that were not listed in the South Florida sales
                    data provided by Sepracor. As previously mentioned, Sepracor was
                    unable to provide us with the specific sales data for certain large retail
                    pharmacies. We identified 42 large retail pharmacies with claims data
                    that did not have sales data. The large retail pharmacies accounted for
                    less than 1 percent of Medicare billings by all Miami-Dade suppliers
                    and we removed them from this analysis. By doing so, we were left with
                    200 Miami-Dade County suppliers for which we calculated unit
                    differences between paid Medicare claims and the total sales data for
                    Sepracor and the three largest wholesalers. We summed the total dollar
                    amount billed to and paid by Medicare for Miami-Dade suppliers that
                    did not appear in Sepracor’s sales data (again, excluding large retail
                    pharmacies).

                    We also identified the top 20 billing suppliers in South Florida by
                    arraying the claims data for 2008 and the first half of 2009 by the total

 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   12
I N T R O D        U C T      I O N


                    amount each South Florida supplier billed for arformoterol. All of the
                    top 20 billing suppliers were located in Miami-Dade County. We
                    compared the total number of units paid in the claims data to the
                    number of units sold to the suppliers by Sepracor and the three largest
                    wholesalers.
                    Limitations
                    Sepracor was able to provide information pertaining to direct sales and
                    sales by the three largest wholesalers. Because direct sales were to two
                    suppliers, the sales most likely accounted for a small percentage of total
                    sales. However, Sepracor did not estimate the direct sales’ percentage
                    of total sales. Sepracor noted that the three largest wholesalers account
                    for approximately 70 percent to 75 percent of arformoterol sales.
                    Sepracor was unable to provide sales information for wholesalers other
                    than the three largest wholesalers, meaning that we may be missing as
                    much as 30 percent of the sales data for arformoterol. In addition,
                    Sepracor’s data account for all sales of the drug (e.g., Medicare,
                    Medicaid, private payers). In other words, the data provided by
                    Sepracor are not limited to the product that was used by Medicare
                    beneficiaries.

                    Our comparisons between the sales data provided by Sepracor and the
                    Medicare claims data do not account for units of arformoterol that were
                    sold to a South Florida DME supplier in 2007 and then provided by the
                    DME supplier to Medicare beneficiaries in 2008. Conversely, our
                    comparisons also do not account for the likelihood that some of the units
                    included in Sepracor’s data that were sold to a South Florida DME
                    supplier in the first half of 2009 would not have been provided to a
                    Medicare beneficiary until later that year (i.e., after the period covered
                    by our analysis).
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-09-00530    QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   13
    F I N D I N G S

        After a utilization edit was implemented for                   In September 2008, a
    budesonide, Medicare payments for the drug to                      CMS contractor covering
                                                                       South Florida implemented
          South Florida suppliers were reduced by
                                                                       an automated edit to detect
                                          almost half
                                                                       and deny budesonide claims
                         that exceeded the drugs’ utilization guideline listed in the LCD for
                         nebulizers and related inhalation drugs. 36 In the 6 months after the
                         edit’s implementation, Medicare paid $13 million less to South Florida
                         suppliers for budesonide (for a 46-percent decrease) and these suppliers
                         billed $24 million less for budesonide (for a 44-percent decrease) when
                         compared to the 6 months before the edit. 37 Figure 1 illustrates the
                         changes in payment and billing behavior of South Florida suppliers
                         before and after the edit was implemented.
                  Figure 1: Before and After the Budesonide Edit—Amount Billed and
                  Paid to South Florida Suppliers for Budesonide
                       $60,000,000
                                               $54,039,588

                       $50,000,000               Amount
                                                  Billed

                       $40,000,000


                                                                 $28,934,163                                      $30,056,515
                       $30,000,000
                                                                                                                    Amount
                                                                    Amount
                                                                                                                     Billed
                       $20,000,000                                   Paid
                                                                                                                                $15,577,307

                                                                                                                                 Amount
                       $10,000,000                                                                                                Paid


                              $0
                                                 Total in 6 Months                                                   Total in 6 Months
                                                       Before                                                               After
                                                 Budesonide Edit                                                     Budesonide Edit


                  Source: OIG analysis of 2008 and 2009 DME claims data, 2010.




                           36 See OEI-03-08-00290 for more detail on budesonide claim patterns in South Florida.
                         This report found that during a 90-day period in 2007, approximately 75 percent of South
                         Florida beneficiaries with budesonide claims exceeded this utilization guideline before the
                         edit was implemented.
                            37 Six months refers to the 180 days before the edit was implemented on
                         September 19, 2008, and the 180 days after the edit was implemented. For the remainder
                         of this finding, comparisons before the edit to after the edit refer to this period.



OEI-03-09-00530          QUESTIONABLE BILLING    FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA                  14
F   I N D I N G        S


                      After the budesonide edit took effect, 39 of 41 high-dollar South Florida
                      suppliers either completely stopped or reduced billing for the drug
                      Thirteen high-dollar suppliers stopped billing after the edit. Nearly
                      30 percent (119 of 414) of the South Florida suppliers that had billed
                      Medicare for budesonide in the 6 months before the edit completely
                      stopped billing for budesonide in the 6 months after the edit. Most of
                      these suppliers had billed only small amounts before the edit. However,
                      13 high-dollar suppliers that submitted $12 million in budesonide
                      claims to Medicare in the 6 months before the edit stopped billing
                      completely. 38 If the nearly 12,000 claims submitted by the
                      13 high-dollar suppliers during the prior 6 months were accurate, this
                      would mean that these suppliers stopped providing budesonide to all
                      3,628 beneficiaries that had received the drug before the edit.

                      In the 6-month period before the edit took effect, 2 of the 13 suppliers
                      were indicted for alleged Medicare fraud. These suppliers were believed
                      to be billing for services not rendered. In each case, the physicians did
                      not know and did not prescribe the medications for the beneficiary listed
                      on the claim. 39
                      Twenty-six high-dollar suppliers significantly reduced billing after the edit.
                      Seventy-one percent of South Florida suppliers (295 of 414) that billed
                      for budesonide in the 6 months before the edit continued to bill for the
                      drug in the 6 months after the edit. Slightly more than half of these
                      had decreases in their amounts billed. The decreases were greatest
                      among suppliers that were the top billing suppliers in the 6 months
                      before the edit. All but 2 of 28 high-dollar suppliers that continued
                      billing for budesonide had billing decreases, some significant, in the
                      6 months after the edit. 40 For example, one supplier billed over
                      $800,000 in the 6 months before the edit, but less than $1,000 in the
                      6 months after the edit. Combined, the 28 high-dollar suppliers billed
                      $13 million less in the 6 months after the edit (53-percent decrease).

                        38 High-dollar suppliers were identified as suppliers that billed more than $500,000 each
                      for budesonide in the 6 months before the edit. Forty-one South Florida suppliers met this
                      criterion.
                         39 We referred the 11 remaining suppliers to OI for further investigation. See
                      Appendix C for the criteria we used when referring all suppliers identified as potentially
                      fraudulent in this report, and for further information from OI about the status of these
                      referrals.
                        40 We referred the 26 high-dollar suppliers with decreases in budesonide billings in the
                      6 months after the edit to OI for further investigation. See Appendix C for the criteria we
                      used when referring all suppliers identified as potentially fraudulent in this report, and for
                      further information from OI about the status of these referrals.



    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   15
F   I N D I N G                S


            Medicare payments for arformoterol to South                      Although a utilization edit
                                                                             reduced Medicare
              Florida suppliers more than doubled after a
                                                                             payments for budesonide
        utilization edit for budesonide was implemented
                                                                             in the 6 months following
                                                                             its implementation,
                             South Florida suppliers instead began billing in substantial amounts for
                             the similarly expensive brand-name inhalation drug arformoterol
                             (which was not subject to an edit). 41 In the 6 months after the
                             budesonide edit took effect, arformoterol billings by South Florida
                             suppliers increased by 53 percent and Medicare payments for the drug
                             to South Florida suppliers rose 138 percent compared to 6 months prior
                             (see Figure 2). 42
                      Figure 2: Before and After the Budesonide Edit—Amount Billed and
                      Paid to South Florida Suppliers for Arformoterol

                         $30,000,000
                                                                                                                   $27,071,544

                         $25,000,000
                                                                                                                     Amount
                                                                                                                      Billed
                         $20,000,000
                                                $17,744,239
                                                                                                                                 $16,404,441

                         $15,000,000              Amount                                                                           Amount
                                                   Billed                                                                           Paid

                         $10,000,000
                                                                  $6,879,485

                          $5,000,000                               Amount
                                                                    Paid


                                   $0
                                                    Total in 6 Months                                                  Total in 6 Months
                                                          Before                                                              After
                                                    Budesonide Edit                                                    Budesonide Edit

                      Source: OIG analysis of 2008 and 2009 DME claims data, 2010.




                                41 Although both drugs treat lung diseases, large shifts from budesonide to arformoterol
                             would not be expected. These drugs are not interchangeable in terms of approved use or
                             classification.
                                42 Six months refers to the 180 days before the edit was implemented on
                             September 19, 2008, and the 180 days after the edit was implemented. In the remainder of
                             this finding, comparisons before the edit to after the edit refer to this period.



    OEI-03-09-00530          QUESTIONABLE BILLING    FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA               16
F   I N D I N G        S


                      In 2008, South Florida suppliers accounted for 44 percent of the total
                      amount billed to Medicare for arformoterol ($33 million of the
                      $75 million billed nationally). Furthermore, Medicare was billed more
                      for beneficiaries in South Florida than for beneficiaries in the rest of
                      Florida and the 18 next-highest-billing States combined. In 2009,
                      South Florida suppliers accounted for 40 percent of arformoterol billings
                      to Medicare ($39 million of the $97 million billed nationally).

                      In 2008, Medicare paid over $14 million to South Florida suppliers for
                      arformoterol; 45 percent of these payments were for services provided in
                      the last quarter of 2008 (i.e., the quarter after the budesonide edit was
                      implemented). Medicare payments for arformoterol increased in 2009.
                      In fact, within the first 4 months of that year, Medicare payments to
                      South Florida suppliers had already exceeded the 2008 total. By the
                      end of 2009, Medicare payments to South Florida suppliers for
                      arformoterol were more than double payments in the previous year.

                      One hundred sixty-nine suppliers increased or began billing for arformoterol
                      after the edit. Nearly half of the South Florida suppliers that submitted
                      arformoterol claims in the 6 months before the budesonide edit had
                      billing increases in the 6 months after the edit (85 of 177 suppliers). 43
                      These 85 suppliers billed an average of nearly 5 times more for a total
                      billing increase of $13 million ($3 million billed before the edit;
                      $16 million billed after). 44 Overall, 67 of the 85 South Florida suppliers
                      billed amounts that were at least double the amounts billed before the
                      budesonide edit. In an extreme case, a supplier billed nearly
                      3,000 times more for arformoterol than the amount billed before the
                      edit. In total, Medicare payments to these 85 suppliers increased by
                      $8 million (341 percent increase).

                      In addition, in the 6 months after the edit, 84 South Florida suppliers
                      began billing for arformoterol. For example, one supplier never billed
                      for arformoterol in the 6 months before the edit, but billed $1.6 million




                        43 Among the 177 South Florida suppliers that billed for arformoterol before the edit,
                      53 suppliers did not bill for the drug in the 6 months after the edit and 39 suppliers billed
                      the same amounts or had billing decreases.
                        44 Thirteen of these suppliers billed more than $500,000 each in the 6 months after the
                      edit. We referred these 13 suppliers to OI for further investigation. See Appendix C for the
                      criteria we used when referring all suppliers identified as potentially fraudulent in this
                      report, and for further information from OI about the status of these referrals.



    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   17
F   I N D I N G        S


                      for the drug in the 6 months after the edit (Medicare paid 90 percent). 45
                      In total, these 84 suppliers billed Medicare $5 million for arformoterol
                      after the edit and were paid $4 million.
                      South Florida suppliers submitted two-thirds of their arformoterol billings
                      for 2008 to Medicare after the budesonide edit was put in place in
                      September 2008
                      In the month after the budesonide edit was implemented
                      (i.e., October 2008), South Florida suppliers billed Medicare for a
                      quarter of the $33 million submitted for arformoterol in 2008. This was
                      more than double the amount South Florida suppliers billed in any
                      other month before the edit (and significantly more than the total
                      amount billed in any month for suppliers in the rest of the country). In
                      total, 66 percent of arformoterol billings for 2008 services were
                      submitted by South Florida suppliers after the edit was implemented.
                      See Appendix D for a monthly breakdown of when South Florida
                      suppliers submitted arformoterol claims.

                      In 2008, the top-billing South Florida supplier submitted $8.4 million to
                      Medicare for arformoterol. Based on claims data, the drug was
                      supposedly provided to beneficiaries throughout the year, starting on
                      January 31. However, this supplier submitted all but 1 of its more than
                      2,300 arformoterol claims beginning 2 days after the September 2008
                      edit was implemented. In other words, after claims for budesonide were
                      subject to an edit, this supplier began submitting a large volume of
                      claims for arformoterol that had supposedly been provided during the
                      previous 8 months.
                      After the September 2008 budesonide edit, decreases to Medicare
                      expenditures for budesonide were offset by increases in expenditures for
                      arformoterol
                      Although the edit reduced Medicare expenditures for budesonide,
                      because South Florida suppliers increased billing for arformoterol,
                      Medicare actually paid more per month for both drugs combined soon
                      after the edit took effect. For example, Medicare paid $6.5 million for
                      both drugs in August 2008 ($1.7 million for arformoterol and
                      $4.8 million for budesonide). However, Medicare paid $7 million for
                      both drugs in March 2009 ($4 million for arformoterol and $3 million for

                        45 We referred this supplier and an additional high-dollar supplier that began billing for
                      arformoterol after the edit to OI for further investigation. See Appendix C for the criteria
                      we used when referring all suppliers identified as potentially fraudulent in this report, and
                      for further information from OI about the status of these referrals.



    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   18
F    I N D I N G               S


                              budesonide). See Figure 3 for a monthly breakdown of combined
                              Medicare payments for budesonide and arformoterol.

                              For example, budesonide billings for one Miami-Dade supplier
                              decreased by more than 50 percent after the edit ($654,000 billed in the
                              6 months before the edit; $306,000 billed in the 6 months after the edit).
                              Medicare denied the majority of the budesonide claims submitted by
                              this supplier both before and after the edit. However, this supplier’s
                              billing for arformoterol increased from just $300 before the edit to
                              $856,000 after the edit. Even though Medicare had been denying the
                              majority of this supplier’s budesonide claims, Medicare paid for
                              55 percent of the amount submitted for arformoterol after the edit, or
                              $474,000.

Figure 3: Medicare Payments to South Florida Suppliers for Budesonide and
Arformoterol in the 6 Months Before and After the Budesonide Edit

                                                                       Edit
    $8,000,000                                                     Implemented

    $7,000,000

    $6,000,000

    $5,000,000

    $4,000,000

    $3,000,000

    $2,000,000

    $1,000,000

            $0
                 Apr-08 May-08 Jun-08 Jul-08 Aug-08 Sep-08 Oct-08 Nov-08 Dec-08 Jan-09 Feb-09 Mar-09

                                   Arformoterol Paid Amount                         Budesonide Paid Amount



Source: OIG analysis of the 2008 and 2009 DME claims data, 2010.

                                                                       Although Medicare paid
     We estimate that in 2008 and the first half of
                                                                       South Florida suppliers
  2009, Medicare paid South Florida suppliers for
                                                                       $34 million for arformoterol
   up to 10 times more units of arformoterol than                      between January 2008 and
              were distributed for sale in the area                    June 2009, it does not appear
                              that these suppliers purchased enough of the drug to justify these
                              payments. During this time, Medicare paid for 7 million units of
                              arformoterol, whereas the manufacturer and the 3 largest wholesalers
                              sold only 750,000 units to suppliers in the area (approximately


     OEI-03-09-00530          QUESTIONABLE BILLING    FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   19
                        F    I N D I N G             S


                                                    3 percent of total Sepracor sales of the drug). As a result, Medicare paid
                                                    South Florida suppliers for nearly 10 times more units of arformoterol
                                                    (6.2 million units) than the drug’s manufacturer and the 3 largest
                                                    wholesalers sold to South Florida suppliers. See Figure 4 for a
                                                    quarterly comparison of the number of units sold by the manufacturer
                                                    and the three largest wholesalers to the number of units paid for by
                                                    Medicare.
Figure 4: Comparison of Manufacturer’s Units Sold to Claims Data in South
Florida (2008 and first half of 2009)

                        2,500,000


                        2,000,000
                                                                                                                                                         Claims Data -
                                                                                                                                                         Units Paid
   Arformoterol Units




                        1,500,000


                        1,000,000


                                                                                                                                                         Manufacturer
                            500,000
                                                                                                                                                         Data - Units
                                                                                                                                                         Sold

                                -
                                       Qtr 1 2008     Qtr 2 2008    Qtr 3 2008             Qtr 4 2008               Qtr 1 2009              Qtr 2 2009



Source: OIG analysis of the 2008 and 2009 DME claims data and manufacturer data, 2010.




                                                    Even when factoring in the 25 percent to 30 percent of missing sales
                                                    data, it is highly unlikely that South Florida suppliers purchased this
                                                    quantity of the drug. According to our analysis of CMS’s ASP data,
                                                    other wholesalers would have sold approximately 6.6 million units of
                                                    arformoterol for all Medicare and non-Medicare arformoterol use in the
                                                    entire country. To account for the amount paid by Medicare,
                                                    South Florida suppliers would have needed to purchase nearly all of
                                                    those 6.6 million units (94 percent) and provided them to Medicare
                                                    beneficiaries only. Aside from the rampant fraud in South Florida, as
                                                    well as the aberrant billing patterns for the drug, the fact that only
                                                    3 percent of the manufacturer’s and the three largest wholesalers’ sales
                                                    went to South Florida suppliers makes this possibility seem highly
                                                    unlikely. In addition, this addresses only the number of units paid and
                                                    not the amount South Florida suppliers billed to Medicare.



                             OEI-03-09-00530        QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA          20
F   I N D I N G        S


                      Records from a February 2009 NSC site visit provide evidence that
                      South Florida suppliers are billing and receiving payments for
                      inhalation drugs that were not actually purchased and provided to
                      Medicare beneficiaries. Staff from NSC visited a Miami-Dade supplier
                      that had billed Medicare $600,000 and was paid $33,000 for
                      arformoterol in 2008 and the first half of 2009. During the site visit,
                      NSC staff noted a limited inventory of DME items, including nebulizers
                      and inhalation drugs. In addition, this supplier could not fulfill NSC’s
                      request to provide invoices or credit agreements showing that it actually
                      purchased the inhalation drugs and DME items. It was recommended
                      that this supplier’s billing privileges be revoked.
                      Based on data from the manufacturer and the 3 largest wholesalers,
                      South Florida suppliers billed Medicare for up to 17 times more than the
                      amount that was distributed for sale in the region
                      Had all South Florida sales reported by Sepracor and the three largest
                      wholesalers gone to beneficiaries, the program would have spent
                      $3.7 million on arformoterol in the area in 2008 and the first half of
                      2009. Instead, South Florida suppliers billed Medicare for $62 million,
                      or 17 times more than the amount the manufacturer and the 3 largest
                      wholesalers could have sold in the region. Medicare actually paid
                      $34 million to South Florida suppliers for arformoterol.

                      Furthermore, South Florida suppliers billed Medicare for such an
                      exceedingly large volume of arformoterol that this amount could not be
                      accounted for in the 25 percent to 30 percent of sales by other
                      wholesalers. Based on our analysis of CMS’s ASP data, had every unit
                      sold by an entity other than the manufacturer and the three largest
                      wholesalers been purchased by a South Florida supplier for Medicare
                      beneficiaries, Medicare would have spent $36 million in this region.
                      Therefore, the $62 million billed by South Florida suppliers far exceeds
                      total possible sales by the manufacturer, the three largest wholesalers,
                      and any other wholesaler that could have provided arformoterol.
                      The majority of Miami-Dade County suppliers never purchased
                      arformoterol from the drug’s manufacturer or the three largest
                      wholesalers in 2008 and the first half of 2009
                      Among South Florida suppliers, the majority billing for arformoterol in
                      2008 and the first half of 2009 were located in Miami-Dade County
                      (79 percent). Sixty-five percent of Miami-Dade County suppliers that
                      billed Medicare for arformoterol between January 2008 and June 2009




    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   21
F   I N D I N G        S


                      did not purchase a unit of the drug from the drug’s manufacturer or the
                      three largest wholesalers during this period. 46 These suppliers billed
                      Medicare for $44 million, of which Medicare paid $23 million
                      (these figures represent 71 percent of total billings and 68 percent of
                      total payments to Miami-Dade County suppliers).

                      Arformoterol’s manufacturer and 3 largest wholesalers sold the drug to
                      only 5 of the 20 Miami-Dade suppliers with the most arformoterol
                      billings in South Florida. This means that 15 of these top-billing
                      suppliers would have had to purchase arformoterol from another source.
                      The 15 suppliers billed Medicare for $29 million in 2008 and the first
                      half of 2009; Medicare paid $13 million of this. 47 Medicare paid these
                      15 suppliers for 2.6 million units of arformoterol that could not be
                      accounted for in the sales data of the manufacturer and the 3 largest
                      wholesalers. Because these suppliers were among the biggest providers
                      of arformoterol in the country, they most likely would have had
                      purchasing contracts with the drug’s manufacturer or the largest
                      wholesalers to obtain purchasing discounts.

                      Even the suppliers that did buy arformoterol from the manufacturer or
                      the three largest wholesalers did not purchase enough to account for
                      their high level of billings. For the five suppliers with sales data,
                      Medicare paid an average of nine times more units than what was
                      actually sold by the manufacturer and the three largest wholesalers.




                        46 Again, these suppliers may have purchased arformoterol from another source.

                      However, given the substantial purchasing and distribution of the drug from certain
                      suppliers, these suppliers would have most likely purchased the drug directly from the
                      manufacturer or one of the three largest wholesalers.
                        47 Among the 15 suppliers, we referred to OI the 13 suppliers that billed Medicare over
                      $1 million for arformoterol during 2008 and the first half of 2009. See Appendix C for the
                      criteria we used when referring all suppliers identified as potentially fraudulent in this
                      report, and for further information from OI about the status of these referrals.



    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   22
   R E C O M M E N D A T I O N S




                  South Florida is known for its susceptibility to Medicare fraud,
                  particularly by DME suppliers. Fraudulent billings jeopardize the
                  financial integrity of Medicare and may endanger a beneficiary’s
                  well-being when drugs are overprescribed. Recent efforts, such as the
                  HEAT initiative, have focused on reducing Medicare fraud, waste, and
                  abuse in areas such as South Florida.

                  A previous OIG report identified potential fraud related to billings for
                  budesonide by South Florida suppliers. In September 2008, a CMS
                  contractor implemented an automated edit to detect and deny claims
                  that exceed the maximum milligrams that a physician can safely
                  prescribe to a beneficiary for budesonide. Our findings indicate that
                  this edit did in fact decrease budesonide billings by and Medicare
                  payments to South Florida DME suppliers. However, South Florida
                  suppliers instead began billing for another brand-name inhalation drug,
                  arformoterol. The substantial difference between the sales data
                  provided by arformoterol’s manufacturer and the claims data for
                  South Florida suppliers suggest that these suppliers were billing for
                  drugs that may not have been actually purchased. Therefore, we
                  recommend that CMS:
                  Require DME contractors to implement utilization edits in
                  high-fraud areas as soon as Medicare begins paying for a
                  brand-name drug
                  The substantial drop in beneficiary utilization of budesonide after the
                  edit brings into question the validity of many of the budesonide claims
                  submitted by South Florida suppliers prior to the edit. The fact that
                  such a large number of suppliers stopped providing this drug further
                  illustrates this point.

                  Even though the edit resulted in lowering budesonide payments,
                  Medicare could not realize the savings because South Florida suppliers
                  instead began to bill for a new high-dollar, brand-name inhalation drug.
                  Within a few months after the edit, Medicare decreases in expenditures
                  for budesonide were offset by increases in expenditures for arformoterol.
                  Medicare should require DME MACs and PSCs (or their successor, the
                  ZPICs) to implement payment edits as soon as the drug is issued a
                  payment code, particularly in areas known for Medicare fraud, such as
                  South Florida. Medicare had been paying for budesonide for at least


OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   23
R   E C O        M M E N D A T           I O N                S


                      3 years and the LCD’s coverage guideline had been in place for over
                      1 year before the edit was implemented. As of March 2010, contractors
                      had yet to place an edit (despite an LCD that has utilization guidelines)
                      on arformoterol claims, and CMS should enforce its implementation as
                      soon as possible. In the case of arformoterol and budesonide,
                      implementing an edit as soon as the drug was issued a payment code
                      could have saved the program hundreds of millions of dollars
                      Monitor utilization changes among brand-name inhalation drugs
                      CMS and its contractors should vigilantly monitor utilization changes to
                      detect instances in which utilization of a drug is disproportionate to
                      utilization in the rest of the country and/or suppliers exhibit billing
                      spikes for a new drug or a drug for which it had never previously billed.
                      This is especially important following implementation of a utilization
                      edit, such as that for budesonide. Because of payment restrictions for
                      budesonide, many South Florida suppliers sought a new drug to bill for
                      in its place and did so in extraordinary amounts. Sales data for
                      arformoterol indicate that many South Florida suppliers were most
                      likely billing for drugs that were never even provided to the
                      beneficiaries. If CMS and its contractors had detected aberrations in
                      arformoterol billings, South Florida suppliers with questionable billings
                      could have been investigated and potentially had their billing privileges
                      revoked.
                      Strengthen initial claim review processes to focus on prevention of
                      improper payments
                      Medicare generally has 30 days to pay a supplier for the claim and is able
                      to review only approximately 3 percent of all Medicare claims prior to
                      payment. DME suppliers have a much longer time to bill Medicare and
                      can submit claims up to a year after the services are provided. Because
                      the majority of the claims billed by South Florida suppliers for
                      arformoterol were submitted soon after the budesonide edit, CMS would
                      have received an influx of claims for this drug in a short timespan. If
                      these claims had been reviewed, the time constraints to pay the claim
                      would most likely have made a thorough review difficult. However,
                      increasing the number of arformoterol claims reviewed would probably
                      have resulted in more denials, thereby significantly reducing payments.
                      For that reason, to strengthen the initial claim review process, we
                      recommend:
                         working with Congress (if necessary) to increase the time
                            Medicare has to review claims in areas known for fraudulent
                            activities, such as South Florida; and


    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   24
R   E C O        M M E N D A T           I O N                S


                            performing prepayment reviews on suppliers in high-fraud areas
                             that submit the majority of their claims well after the dates of
                             service.
                      Perform site visits and request documentation from South Florida
                      suppliers to support budesonide and arformoterol billings
                      As discussed in the findings, we have provided a list to OI of high-dollar
                      suppliers we believed warranted investigation for criminal wrongdoing.
                      After consulting with OI, we also forwarded information on certain of
                      these suppliers to CMS. See Appendix C for a summary of the criteria
                      used to identify these suppliers. CMS should perform unannounced site
                      visits to the problematic high-dollar suppliers we refer to the agency.
                      These visits would determine whether these suppliers are stocked with
                      the drugs; have appropriate storage facilities for the drugs; have stored
                      the drugs properly (e.g., refrigeration for arformoterol); and meet
                      Medicare supplier standards. CMS should also request that the
                      suppliers provide documentation to justify the amounts billed for
                      budesonide and arformoterol. Documentation should include items such
                      as purchasing receipts, invoices, credit agreements, and proof of
                      delivery to the beneficiary. Where appropriate, CMS should take steps
                      to revoke billing privileges for any suppliers with fraudulent claims.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with all four of our recommendations (one of the
                      concurrences included a caveat). CMS also described a number of steps
                      that the agency has taken to resolve problematic billings for
                      brand-name inhalation drugs by DME suppliers in South Florida and in
                      certain other areas of the country. Effective July 16, 2010, a CMS
                      contractor implemented three new edits covering multiple States
                      (including Florida) for budesonide; arformoterol; and a third inhalation
                      drug, formoterol. To prevent suppliers from switching to related
                      products to evade these new edits, this contractor is also developing
                      utilization edits for an additional nine inhalation drugs. CMS also
                      described its efforts to closely track shifts in utilization from budesonide
                      to arformoterol and formoterol under its DME Stop Gap Initiative, as
                      well as supplier-specific measures under the ZPICs.

                      In response to our first recommendation about utilization edits, CMS
                      generally concurred, but included the caveat that the requirements
                      listed in the Medicare manual be met first. CMS stated that before
                      implementing automated prepayment edits for brand-name inhalation

    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   25
R   E C O        M M E N D A T           I O N                S


                      drugs, a “clear policy,” such as developing and issuing an LCD, would
                      need to be finalized so that unintended adverse consequences would be
                      avoided. OIG acknowledges the importance of CMS’s requirements and
                      agrees with the agency about the need to avoid adverse consequences.
                      However, in the case of budesonide and arformoterol, utilization
                      guidelines were listed in the LCD years before the edits took effect.
                      Once utilization guidelines for brand-name inhalation drugs are
                      established and listed in an LCD, CMS should ensure that edits to
                      enforce them are put in place, particularly in high-fraud areas.

                      CMS agreed with our recommendation to monitor utilization changes
                      among brand-name inhalation drugs, as well as with our
                      recommendation to strengthen initial claim review processes. The
                      agency stated that to strengthen these processes, it would recommend
                      to DME PSCs and ZPICs that the identification of late-billing suppliers
                      be used as an additional risk indicator for initiating prepayment
                      reviews and that it would request the Pricing and Data Analysis
                      Contractor to add this parameter to its DME Stop Gap Supplier
                      Reporting Templates. CMS also stated that it would forward our
                      suggestion that the agency work with Congress to increase the time
                      Medicare has to review claims to its Office of Legislation. Finally, CMS
                      concurred with our recommendation to review specific problematic
                      suppliers and provided details regarding its planned actions.

                      We did not make any changes to the report based on CMS’s comments.
                      For the full text of CMS’s comments, see Appendix E.




    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   26
   A P P E N D I X                   ~           A

                  Medicare Process for Enrolling Durable Medical Equipment Suppliers
                  Before a durable medical equipment (DME) supplier may bill Medicare,
                  it must obtain a National Provider Identifier (NPI), which is a unique
                  identifier for health care providers that is assigned by the National Plan
                  and Provider Enumeration System. Recently, the Centers for Medicare
                  & Medicaid Services (CMS) added two additional requirements that
                  suppliers must meet to obtain Medicare billing privileges. First, as of
                  May 2009, DME suppliers seeking to enroll or change their ownership
                  must also submit a $50,000 surety bond for each NPI with Medicare
                  billing privileges (suppliers enrolled prior to this date were required to
                  submit the surety bond by October 2, 2009). Second, all DME suppliers
                  must meet quality standards and submit evidence of accreditation as of
                  October 1, 2009. 48, 49
                  After meeting these requirements, the DME applicant must submit a
                  completed application form (Form CMS-855S) and supporting
                  documents to CMS. By signing and submitting the application form,
                  the applicant agrees to follow all Medicare laws, regulations, and
                  program instructions. The applicant must also meet certain Medicare
                  supplier standards. 50
                  CMS contracts with the National Supplier Clearinghouse (NSC) to
                  manage the enrollment of suppliers. To ensure that an applicant is
                  meeting the Medicare supplier standards, NSC must conduct an
                  unannounced site visit while the application is being processed.
                  Generally, if the supplier is not in compliance, NSC will deny the
                  application. Suppliers are required to reenroll in Medicare every
                  3 years to continue receiving payment. 51 The reenrollment process
                  requires a resubmission of the CMS-855S application form and the
                  required documentation. NSC will conduct an unannounced
                  reenrollment site visit to ensure that the supplier continues to meet
                  Medicare standards.

                     48 Medicare Improvements for Patients and Providers Act of 2008, P.L. 110-275
                  § 154(b)(1) (July 15, 2008). Certain professionals and persons did not have to meet this
                  deadline. Pharmacies supplying DME did not have to meet the accreditation requirements
                  until December 31, 2009.
                    49 The new health care reform statute recently enhanced CMS’s authority related to
                  supplier enrollment by implementing measures to improve the oversight and screening of
                  suppliers. For example, as part of these changes, enrolling suppliers will now be required to
                  have a compliance program and disclose certain affiliations with excluded entities. Patient
                  Protection and Affordable Care Act of 2010, P.L. 111-148 § 6401 (Mar. 23, 2010).
                    50 42 CFR § 424.57(c).
                    51 42 CFR § 424.57(e).




OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   27
      A P P E N D I X                    ~             B


                  Related Office of Inspector General Work
                  Unannounced site visits. In March 2007, the Office of Inspector General
                  (OIG) issued a report entitled South Florida Suppliers’ Compliance With
                  Medicare Standards: Results From Unannounced Visits
                  (OEI-03-07-00150). In that study, OIG made 1,581 unannounced site
                  visits in late 2006 to durable medical equipment (DME) suppliers in
                  South Florida. We found that 491 suppliers (31 percent) visited did not
                  maintain a physical facility or were not open and staffed during
                  business hours. At the time that we conducted the visits, these
                  491 suppliers had billed Medicare for almost $237 million in 2006. We
                  referred these suppliers to the Centers for Medicare & Medicaid
                  Services (CMS) so that the agency could consider revocation. We
                  recommended that CMS strengthen the supplier enrollment process and
                  ensure that suppliers meet Medicare supplier standards. CMS stated
                  that it would take several steps to strengthen supplier standards and
                  revoked the billing privileges for the 491 suppliers OIG referred.

                  OIG issued a followup report in October 2008 entitled South Florida
                  Durable Medical Equipment Suppliers: Results of Appeals
                  (OEI-03-07-00540), that determined the number of revoked suppliers
                  identified in the aforementioned study that appealed their revocations
                  and were reinstated into the Medicare program. Nearly half of the
                  491 revoked South Florida suppliers appealed their revocations and
                  received hearings; among these, 91 percent were reinstated by the
                  hearing officers based on a variety of evidence. After being reinstated,
                  two-thirds of these suppliers had their billing privileges revoked again
                  or inactivated. We recommended that CMS strengthen the supplier
                  appeal process by developing criteria for reinstatements. In response,
                  CMS stated that it had been taking aggressive steps to prevent
                  Medicare fraud and agreed that reinstatement guidelines should be
                  developed.

                  Aberrant billing patterns. In September 2007, OIG issued a report
                  entitled Aberrant Billing in South Florida for Beneficiaries With
                  HIV/AIDS (OEI-09-07-00030). This study analyzed claim patterns
                  associated with HIV/AIDS infusion therapy providers in South Florida
                  and the oversight mechanisms CMS had in place to control
                  inappropriate payments to these providers. In the last half of 2006,
                  South Florida accounted for 79 percent of the amount of drug products
                  billed nationally for Medicare beneficiaries with HIV/AIDS, even though


OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   28
A   P   P E N D       I X      ~      B


                      only about 10 percent of Medicare beneficiaries with HIV/AIDS lived
                      there. Based on our review of CMS materials and claims data, we found
                      that CMS and its contractors had used multiple approaches in
                      South Florida to control aberrant billing for beneficiaries with
                      HIV/AIDS, but none had proven effective as of the time we conducted
                      our review. We recommended that CMS implement a number of
                      controls that could reduce aberrant billing by infusion clinics. CMS
                      generally concurred with our recommendations.

                      The April 2009 OIG report entitled Aberrant Claim Patterns for
                      Inhalation Drugs in South Florida (OEI-03-08-00290), found that
                      South Florida accounted for 17 percent of Medicare spending on
                      inhalation drugs in 2007, even though only 2 percent of all Medicare
                      beneficiaries lived there. In particular, per-beneficiary spending on
                      budesonide was much greater in South Florida than in the rest of the
                      country ($4,429 per beneficiary compared to $1,567 per beneficiary
                      in the rest of the country). We also found that 75 percent of
                      South Florida beneficiaries who received budesonide had
                      Medicare-reimbursed budesonide claims that exceeded the utilization
                      guidelines for this drug, compared to 14 percent in the rest of the
                      country. We recommended that CMS ensure that all Program
                      Safeguard Contractors are enforcing the guidelines (especially for
                      budesonide), eliminate Medicare’s vulnerability to potentially
                      fraudulent claims, and review the cases in which the supplier appears
                      to be fraudulently billing Medicare. CMS concurred with all of our
                      recommendations and described its recent efforts to address the
                      issues cited in our report, including the implementation of an
                      automated edit for budesonide in September 2008.
                      Medicare Fraud Strike Force and the Health Care Fraud Prevention and
                      Enforcement Action Team
                      On March 1, 2007, a strike force of Federal, State, and local
                      investigators began operating in South Florida to detect, prosecute, and
                      prevent Medicare fraud by area DME suppliers. The Strike Force’s
                      efforts have resulted in more than $220 million in court-ordered
                      restitutions to the Medicare program in cases involving 159 defendants
                      charged with criminal health care fraud offenses. In March 2008, a
                      second phase of the strike force began operating in Los Angeles.

                      In May 2009, the Health Care Fraud Prevention and Enforcement
                      Action Team (HEAT) initiative was launched to renew efforts to reduce
                      Medicare fraud. This initiative is a collaboration of officials from the
                      Department of Health & Human Services and the Department of

    OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   29
A P P E N D        I X      ~      B


                   Justice that builds upon existing programs that combat fraud and
                   identifies new methods to prevent fraud. HEAT is intended to increase
                   Medicare compliance training for providers, improve data sharing
                   between CMS and law enforcement, and strengthen program integrity
                   monitoring. The HEAT initiative also strengthened and expanded the
                   Medicare Strike Force to Detroit, Houston, Brooklyn, Tampa, and Baton
                   Rouge.




 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   30
   A P P E N D I X                    ~          C


                  Criteria Used To Identify and Refer Potentially Fraudulent
                  South Florida Durable Medical Equipment Suppliers
                  In total, we identified 49 high-dollar durable medical equipment
                  suppliers in South Florida as especially problematic and worthy of
                  further review. 52 Suppliers were identified using the three criteria
                  below. Because suppliers may meet more than 1 of the criteria, the
                  number of suppliers listed does not add up to the 49 unique suppliers
                  we believed warranted investigation.

                  Our criteria used to identify the potentially fraudulent suppliers
                  include:
                         billing over $500,000 for budesonide before the utilization edit was
                          implemented, but then having a significant drop or completely
                          stopping billing in the 6 months after the edit (37 suppliers);

                         beginning to bill or significantly increasing billing for arformoterol
                          in the 6 months after the edit and billing for over $500,000 during
                          this period (15 suppliers); and

                         billing over $1 million in 2008 and the first half of 2009 for
                          arformoterol, but not purchasing a unit of the drug from the
                          manufacturer or the 3 largest wholesalers (13 suppliers).

                  We have referred these 49 suppliers to OI. Of the 49, OI and the
                  Federal Bureau of Investigation had more than half under
                  investigation. Some of the providers have already had prosecutorial
                  actions taken against them. After consulting with OI, we have
                  forwarded information for certain of the 49 suppliers, as deemed
                  appropriate, to the Centers for Medicare & Medicaid Services for
                  possible revocation.




                      52 We initially identified 51 suppliers as being especially problematic; however, at the

                  time of our data analysis, 2 of those suppliers had already been indicted for alleged
                  Medicare fraud and we therefore did not refer them to the Office of Investigations (OI).



OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   31
   A P P E N D I X                             ~          D


     Table D-1: Monthly Claims Submitted by South Florida Suppliers
     for Arformoterol Services Provided in 2008

                                                             Monthly
                                       Amount           Percentage of                       Cumulative
       Month Claim Was            Submitted per                 Total                          Amount                 Cumulative
       Submitted                         Month             Submitted                         Submitted                Percentage
       Jan–08                              $4,687                         0%                         $4,687                     0%
       Feb–08                           $127,056                          0%                     $131,743                       0%
       Mar–08                           $261,453                          1%                     $393,196                       1%
       Apr–08                           $469,923                          1%                     $863,119                       3%
       May–08                           $786,074                          2%                  $1,649,193                        5%
       Jun–08                         $1,786,228                          5%                  $3,435,421                        10%
       Jul–08                         $3,769,246                        11%                   $7,204,667                        22%
       Aug–08                         $1,572,232                          5%                  $8,776,900                        27%
       Sep–08                         $2,540,261                          8%                $11,317,161                         34%

       Budesonide edit implemented at the end of the September

       Oct–08                         $8,161,763                        25%                 $19,478,924                         59%
       Nov–08                         $4,580,203                        14%                 $24,059,127                         73%
       Dec–08                         $6,187,195                        19%                 $30,246,323                         92%
       Jan–09                         $2,124,999                          6%                $32,371,322                         98%
       Feb–09                           $361,259                          1%                $32,732,581                         99%
       Mar–09                           $323,095                          1%                $33,055,676                     100%

     Source: Office of Inspector General analysis of the 2008 claims data, 2010.

     Note: Amounts submitted per month are based on the dates that the suppliers actually submitted the claims for processing.




OEI-03-09-00530          QUESTIONABLE BILLING     FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA         32
      A P PEN 0                           x                 E

Agency Comments



/"fPYfcw..,
\.    ~	 DEPARJ'MENT OF REALrn                  & HUMAN SERVICES                           Centers lor Medicare & Medicaid Services

  Sz'-                                                                                     Administra tor
                                                                                           Washington, DC 20201




              DATE: 	        OCT 1 2 2010
              TO: 	          Daniel R. Levinson 

                             Inspector General 


              FROM: 	        Donald M. Berwick, M.D. 

                                                         /S/
                             Administrator 


              SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Questionable Billing for
                         Brand-Name Inhalation Drugs in South Florida" (OEI-03-09-00530)


              Thank you for the opportunity to review and comment on the subject OIG draft report. The
              Centers for Medicare & Medicaid Services (CMS) has been aware ofa problem with billings for
              brand-name inhalation drugs by durable medical equipment (DME) suppliers in South Florida,
              and in certain other areas of the country. Therefore, cMs has already taken a number of steps to
              address this problem.

              Although, as OIG reports, edits were not in place for arformeterol as of March 2010, Clinically
              Unlikely Edits (CUEs) have since been placed by CMS' Zone 7 Zone Program Integrity
              Contractor (ZPIC), SafeGuard Services (SGS), on arformeterol. CUEs have also been developed
              and placed on an additional inhalation drug, formeterol.

              In addition, although the budesonide edit savings for the South Florida tri-county area for the
              period September 9,2008, through March 31, 2010, exceeded $9 million, SGS modified the edit
              to expand its scope and geographic location to increase its effectiveness. Specifically, SGS has
              tightened the utilization parameters for the budesonide edit and has expanded the geographic
              area from the original three South Florida counties. On July 16,2010, these three new edits for
              budesonide, arformeterol, and formeterol were input into the system by SGS.

              In order to maximize (he impact of these edits and in recognition of the fact that billing shifts
              within and beyond high-fraud areas, at the request of the Zone 7 ZPIC, these three edits have
              been placed jurisdiction-wide for Durable Medical Equipment Medicare Administrative
              Contractor (DME MAC) Jurisdiction C. Following are the 14 states and 2 territories, by ZPIC
              jurisdiction, in which these edits are in effect:

                      • 	 ZPIC Zone 4, Health Integrity: Texas, Oklahoma, Colorado, and New Mexico;
                      • 	 ZPIC Zone 5, AdvanceMed: West Virginia, Virginia, North Carolina, Georgia,
                          Alabama. Mississippi, Tennessee. Arkansas, and Louisiana;
                      • 	 ZPIC Zone 7, SGS: Florida, Puerto Rico, and the U.S. Virgin Islands.




     OEI·03·09·00530             QUESTIONABLE BILLING FOR BRAND· NAME INHALATION DRUGS IN SOUTH FLORIDA                               33
A P P E N D        I X      ~      E




 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   34
A P P E N D        I X      ~      E




 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   35
A P P E N D        I X      ~      E




 OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   36
   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.

                  Stephanie Yeager served as the team leader for this study. Central
                  office staff who contributed include Natasha Franklin and Scott Manley.




OEI-03-09-00530   QUESTIONABLE BILLING   FOR   B R A N D - N A M E I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   37
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
